               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Independent Report on Employee
          Benefits, Withholdings,
     Contributions, and Supplemental
     Semiannual Headcount Reporting
    Submitted to the Office of Personnel
               Management

                  Attestation Report



                                              November 8, 2013

Report Number FT-AR-14-002
                                                                    November 8, 2013
                                            Independent Report on Employee Benefits,
                                                    Withholdings, Contributions, and
                                                 Supplemental Semiannual Headcount
                                                  Reporting Submitted to the Office of
                                                              Personnel Management
                                                         Report Number FT-AR-14-002



BACKGROUND:                                    different campaign address than the one
This attestation engagement is an              provided by the OPM. We also identified
annual requirement of the U.S. Office of       141 of 75,157 employees whose
Management and Budget’s Circular               campaign codes in the Postal Service’s
Number A-136, Financial Reporting              payroll system did not match the OPM’s
Requirements, and Bulletin 07-04, Audit        campaign codes associated with the
Requirement for Federal Financial              employee’s work location. This included
Statements. Additionally, the U.S. Office      14 employees at seven work locations
of Personnel Management (OPM)                  who contributed to campaigns for which
manages the Combined Federal                   there were no official campaign codes.
Campaign and ensures compliance with
Combined Federal Campaign                      We validated that the Postal Service
regulations.                                   and its employees paid the correct
                                               withholdings and contributions. Also,
At the request of the OPM Office of            management corrected the campaign
Inspector General, we performed                address and the inactive campaign
procedures agreed upon by the                  deductions for three employees and is
inspector general and the chief financial      reviewing campaign codes. Therefore,
officer of the OPM. Our objectives were        the information provided to the OPM
to help the OPM assess the                     was reasonable.
reasonableness of employee benefit
withholdings, Postal Service benefit           We were not engaged in and did not
contributions, and employee benefit            perform an audit, the objective of which
enrollment information; and to confirm         would have been the expression of an
Combined Federal Campaign program              opinion on the withholdings and
accounting codes and payroll data to           contributions. Accordingly, we do not
OPM records.                                   express such an opinion. Had we
                                               performed additional procedures, we
WHAT THE OIG FOUND:                            might have found other matters that we
We found a difference between the life         would have reported.
insurance election information in payroll
records and the Life Insurance Election        WHAT THE OIG RECOMMENDED:
form for one of the 25 employees               This report is provided for information
reviewed.                                      only and we offered no
                                               recommendations. Accordingly, no
We identified one of 185 Combined              management action is required.
Federal Campaigns in the U.S. Postal
Service’s payroll system that had a            Link to review the entire report
November 8, 2013

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                            VICE PRESIDENT

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-14-002)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
13BD007FT000). This report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed the agreed-upon procedures in
accordance with generally accepted government auditing standards and attestation
standards established by the American Institute of Certified Public Accountants. We
performed the procedures solely to help the OPM assess the reasonableness of
employee withholdings and U.S. Postal Service contributions in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
three selected payroll periods. We also verified enrollment information in the
Supplemental Semiannual Headcount Report for September 2012 and March 2013.
Finally, we confirmed the Combined Federal Campaign program accounting codes and
payroll data with the OPM records for one payroll period.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John E. Cihota, deputy
assistant inspector general for Financial and Systems Accountability, or
Denice M. Millett, director, Finance, at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
November 8, 2013

MEMORANDUM FOR:            HONORABLE PATRICK E. MCFARLAND
                           INSPECTOR GENERAL
                           U.S. OFFICE OF PERSONNEL MANAGEMENT

                           DENNIS D. COLEMAN
                           CHIEF FINANCIAL OFFICER
                           U.S. OFFICE OF PERSONNEL MANAGEMENT




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-14-002)

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 13BD007FT000).

At the request of the OPM Office of Inspector General (OIG), we performed the
agreed-upon procedures in accordance with generally accepted government auditing
standards and attestation standards established by the American Institute of Certified
Public Accountants. We performed the procedures solely to help the OPM assess the
reasonableness of employee withholdings and U.S. Postal Service contributions in the
Report of Withholdings and Contributions for Health Benefits, Life Insurance and
Retirement for three selected payroll periods. We also verified enrollment information in
the Supplemental Semiannual Headcount Report for September 2012 and March 2013.
Finally, we confirmed the Combined Federal Campaign (CFC) program accounting
codes and payroll data with the OPM records for one payroll period.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions or need additional information, please contact John E. Cihota,
deputy assistant inspector general for Financial and Systems Accountability, or
Denice M. Millett, director, Finance, at 703-248-2100.

Attachment

cc: Michael R. Esser
    William W. Scott, Jr.
Independent Report on Employee Benefits, Withholdings, Contributions                                               FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Unverified Life Insurance Election ................................................................................... 2

Unmatched Combined Federal Campaign Address ........................................................ 2

Unmatched Combined Federal Campaign Codes ........................................................... 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Unmatched Combined Federal Campaign Codes ....................................... 8

Attachment A: Agreed-Upon Procedures ...................................................................... 10
Independent Report on Employee Benefits, Withholdings, Contributions                              FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

Introduction

This report presents the results of our attestation engagement of the procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 13BD007FT000). The report responds
to the OPM’s request for help assessing the reasonableness of employee withholdings
and U.S. Postal Service contributions reported in the Report of Withholdings and
Contributions for Health Benefits, Life Insurance and Retirement for the payroll periods
ended August 24, 2012; February 22, 2013; and April 19, 2013; the enrollment
information reported in the Supplemental Semiannual Headcount Report for September
2012 and March 2013; and the Combined Federal Campaign (CFC) program
information for the payroll period ended February 22, 2013. See Appendix A for
additional information about this attestation engagement and Attachment A for a
description of the procedures.

This attestation engagement is an annual requirement of the Office of Management and
Budget's Circular Number A-136, Financial Reporting Requirements, and Bulletin 07-04,
Audit Requirement for Federal Financial Statements. Additionally, the OPM manages
the CFC and ensures compliance with CFC regulations.

Conclusion

Generally, we verified the employee withholdings, Postal Service contributions, and
enrollment information reported and transferred to the OPM for health benefits, life
insurance, and retirement; and campaign names, campaign addresses, and campaign
codes from the Postal Service's payroll system to those provided by the OPM. However,
we identified the following issues:

   A difference between life insurance election information in payroll records and that
    on the election form of one of 25 employees whose information we reviewed. The
    Postal Service could not confirm the employee’s life insurance elections made 20
    years ago; however, we confirmed the employee’s payroll deduction for life
    insurance elections per the Postal Service’s payroll records with the life insurance
    premiums per the OPM.

   A difference between the campaign address and ZIP Code™ in payroll records
    provided by the OPM for one of 185 campaigns.1 Management corrected the
    campaign address and ZIP Code.

   Campaign codes in the payroll system did not match OPM campaign codes
    associated with 141 of 75,157 employees from 67 work locations. This included 14
    employees at seven work locations who contributed to campaigns for which there
    were no official campaign codes and three employees at three work locations who
1
 The Postal Service’s payroll records included 185 campaign codes, including one inactive campaign code and one
campaign code with an incorrect address. The OPM records included 184 campaign codes.
                                                        1
Independent Report on Employee Benefits, Withholdings, Contributions                                       FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

    contributed to one inactive campaign code. Management is working with OPM to
    resolve the difference and has corrected the inactive campaign code.

   We could not validate all campaign codes with original pledge forms from our
    sample. We have identified similar issues in previous reports.2

This report is provided for information only and we offer no recommendations.
Accordingly, no management action is required.

Unverified Life Insurance Election

We identified a difference between life insurance election information in payroll records
and the Life Insurance Election form for one of the 25 employees whose information we
reviewed.3 Table 1 specifies the difference.

                             Table 1. Life Insurance Election Difference
             Employee                Per Payroll Records                   Per Election Form on File
                                  Basic                                      Basic
                  A               Additional Coverage                        Additional Coverage
                                   Four Times Basic Pay                        Three Times Basic Pay
          Source: Postal Service payroll system and official personnel folders.

Life Insurance Election forms are the original source documents that initiate
withholdings, contributions, changes, and cancellations in payroll records. Additionally,
the OPM requires the Postal Service to keep the forms on file as a permanent record.
However, we could not confirm one current life insurance election with the original
source document because the most recent Life Insurance Election form was
inadvertently lost, misfiled, or destroyed.4 We verified that the correct withholding and
contribution were paid according to the processed Notification of Personnel Action5 and
earnings statement.

Unmatched Combined Federal Campaign Address

We identified one of 185 campaigns in the Postal Service's payroll system that had a
different campaign address and ZIP Code than those provided by the OPM.6 The Postal
Service’s payroll records listed the address and ZIP Code for the Cheyenne Area’s CFC
as Post Office Box 20301, Cheyenne, WY 82003-7007. The address per the OPM was
1401 Airport Parkway, Suite 220, Cheyenne, WY 82001-1541. On September 20, 2013,
the Postal Service informed us that it had corrected the campaign address in the payroll
records.
2
  See Appendix A Prior Audit Coverage.
3
  Procedure Number 2.i.
4
  We were able to find the most recent Life Insurance Election forms for the other employees whose information we
reviewed.
5
  Based on the Life Insurance Election form, the Postal Service initiates a Notification of Personnel Action to start or
modify life insurance withholdings.
6
  Procedure Number 8.

                                                            2
Independent Report on Employee Benefits, Withholdings, Contributions                               FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



The Postal Service uses electronic funds transfer (EFT) to transmit employee
contributions to the campaigns; therefore, bank routing numbers and account numbers
are the primary data elements that ensure a successful transaction. However, if an EFT
is unsuccessful, the Postal Service issues and mails a check to the campaign.
Accordingly, the campaign names and addresses in the Postal Service's payroll system
exist as a secondary control. Before mailing the check, the Postal Service verifies the
name and address in its payroll system with the most recent OPM monthly update to
ensure the mailing address is current.7

Unmatched Combined Federal Campaign Codes

We identified 141 of 75,157 employees whose campaign codes in the Postal Service's
payroll system did not match the OPM campaign code associated with the employee's
work location.8 This included 14 employees at seven work locations who contributed to
campaigns for which there were no official campaign codes9 and three employees at
three work locations10 who used an inactive campaign code. On September 20, 2013,
the Postal Service informed us that it had corrected the inactive campaign code in its
payroll records. The differences could be attributed to inaccurate OPM information or
Postal Service coding errors. We did not validate the accuracy of the OPM's campaign
data or other potential causes for the differences between the Postal Service's payroll
data and the OPM's campaign data because it was beyond the scope of this attestation
engagement. See Appendix B for the list of unmatched CFC codes we identified and
provided to Postal Service management, which is currently working with OPM to resolve
the differences.

We judgmentally selected two of the 141 employees and requested the original pledge
forms to verify the campaign codes.11 We selected one employee working in Newton,
MS (Newton County) who contributed to the Greater Mississippi campaign. The original
pledge form supported this contribution; however, according to the OPM, Newton, MS
had no official campaign. We confirmed that the Greater Mississippi campaign did
include Newton County; therefore, the difference was attributed to inaccurate OPM
information.

We were unable to obtain the original pledge form for the other judgementally selected
employee because, although the CFC program requires agencies to keep pledge forms
for three pledge periods, the Postal Service retained the pledge forms for no more than
6 months in accordance with the Privacy Act of 1974, as amended.12 In response to our




7
  EFT is generally used; it is rare that a check is issued.
8
  Procedure Number 9.
9
  Holly Springs, MS; Newton, MS; Louisville, MS; Noxapater, MS; Sylva, NC; Blacksburg, SC; and Pleasanton, TX.
10
   Frankfort, NY; Washington Mills, NY; and Westernville, NY.
11
   Procedure Number 10.
12
   Combined Federal Campaign Operational Guidelines, Publication 530, October 2011.

                                                       3
Independent Report on Employee Benefits, Withholdings, Contributions                            FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

FY 2012 attestation report,13 the Postal Service stated that it has revised its policy,
effective August 13, 2013, to retain pledge forms for 4 years.

We were not engaged in and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes. This report is provided for information only and requires no management
action. We offered no recommendations.




13
  Independent Report on Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual Headcount
Reporting Submitted to the Office of Personnel Management (Report No. FT-AR-12-013, dated September 25, 2012).

                                                      4
Independent Report on Employee Benefits, Withholdings, Contributions                            FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



                               Appendix A: Additional Information

Background

The Postal Service Information Technology and Accounting Services in Eagan, MN is
responsible for calculating, disbursing, and reporting employee withholdings and Postal
Service contributions for health benefits, life insurance, and retirement. As of
March 1, 2013, the Postal Service employed more than 624,700 people (about 485,400
with benefits).

During each of the three payroll periods reviewed,14 the Postal Service withheld an
average of more than $78 million and contributed over $290 million toward benefits. The
Postal Service transmitted these funds to the OPM via the Retirement and Insurance
Transfer System (RITS) and prepared the Report of Withholdings and Contributions for
Health Benefits, Life Insurance and Retirement for each payroll period detailing the
amounts associated with each benefit category. Additionally, the Postal Service
submitted to the OPM the Supplemental Semiannual Headcount Report detailing the
number of employees associated with each benefit category for September 2012 and
March 2013.

The CFC is the world's largest annual workplace charity campaign. Postal Service
employees make contributions through payroll deductions to support eligible non-profit
organizations that provide health and human services throughout the world. The Postal
Service Information Technology and Accounting Services in Eagan, MN is responsible
for payroll coding and disbursing the contributions to 184 campaigns.

The OPM correlates campaigns with work locations (cities, counties, and states). The
Postal Service has about 32,500 locations, about 1,200 of which are in work locations
with no official campaign. During the payroll period reviewed, about 75,000 Postal
Service employees contributed $818,000 to the campaigns through payroll deductions.
Contributions are submitted to the campaigns via EFT. If the EFT is unsuccessful, a
check is issued and mailed to the campaign.

Objectives, Scope, and Methodology

Our objectives were to:

    Help the OPM assess the reasonableness of employee benefit withholdings and
     Postal Service benefit contributions in the Report of Withholdings and Contributions
     for Health Benefits, Life Insurance and Retirement, as well as enrollment information
     in the Supplemental Semiannual Headcount Report.

    Confirm CFC program accounting codes and payroll data with OPM records.
14
  These periods covered 55,216 employees who declined health benefits and 1,856 employees who waived life
insurance coverage.

                                                      5
Independent Report on Employee Benefits, Withholdings, Contributions                                FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



To accomplish our objectives, we applied the agreed-upon procedures to the payroll
periods ending August 24, 2012, and February 22, 2013, coinciding with the
Supplemental Semiannual Headcount Report for August 31, 2012, and March 1, 2013,
respectively. We randomly selected another payroll period, ending April 19, 2013, for
additional testing. We limited our CFC testing to one payroll period ending February 22,
2013.

We confirmed RITS data by verifying payroll source documents. We reviewed personnel
documents for 50 employees15 to verify salaries, retirement, and the election or
non-election of health benefits and life insurance. Our sample included the records of
five employees covered as Federal Employees Retirement System-Revised Annuity
Employees. For all employees, we independently calculated employee withholdings,
Postal Service contributions, and enrollment information for health benefits, life
insurance, and retirement. We compared the results to actual employee withholdings
and Postal Service contributions submitted to the OPM to determine whether
differences existed. For the CFC program, we compared work locations, accounting
codes, and payroll deductions to the campaigns approved by the OPM to identify
differences.

We conducted this engagement from May through November 2013 in accordance with
the American Institute of Certified Public Accountants attestation standards and
generally accepted government auditing standards. The sufficiency of the agreed-upon
procedures is solely the responsibility of the inspector general and the chief financial
officer of the OPM. Consequently we make no representation regarding the sufficiency
of the agreed-upon procedures either for the purpose for which this report has been
requested or any other purpose. We discussed our observations and conclusions with
management officials and included their comments where appropriate. Postal Service
management chose not to respond to this report since there were no recommendations.

We relied on computer-generated data from the Postal Service's payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the
computer-generated data. We determined that the data were sufficiently reliable for the
purposes of this report.




15
  The universe for sample selection does not include 146,085 employees who elected health benefits and basic life
insurance only (no optional coverage elected).

                                                        6
Independent Report on Employee Benefits, Withholdings, Contributions             FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

Prior Audit Coverage

                                                                                  Final
                                                                     Report      Report
                      Report Title                                  Number        Date
  Independent Report on Employee Benefits,                        FT-AR-12-013   9/25/12
  Withholdings, Contributions, and Supplemental
  Semiannual Headcount Reporting Submitted to the
  Office of Personnel Management
  Report Results: We identified differences between the life insurance election
  information in payroll records and the Life Insurance Election form for two of the 25
  employees whose information we reviewed. We identified 32 of 223 CFC entries in
  the Postal Service's payroll system that had different campaign names and
  addresses than those the OPM provided. We also identified 81 of 85,824
  employees whose campaign codes in the Postal Service's payroll system did not
  match the OPM campaign codes associated with the employee's work location.
  This included 13 employees at nine work locations who contributed to campaigns
  for which there were no official campaign codes. We made no recommendations.

  Independent Report on Employee Benefits,                FT-AR-11-012        9/29/11
  Withholdings, Contributions, and Supplemental
  Semiannual Headcount Reporting Submitted to the
  Office of Personnel Management
  Report Results: We identified differences between the health benefit election
  information in payroll records and the Health Benefit Election Form for one of the
  10 employees whose information we reviewed; and life insurance election
  information in payroll records and the Life Insurance Election form for one of the 25
  employees whose information wer reviewed. We identified 58 of 209 CFC entries in
  the Postal Service’s payroll system that had different campaign names and/or
  addresses than those the OPM provided. We identified 587 of 100,613 employees
  whose campaign codes in the Postal Service’s payroll system did not match the
  OPM campaign code associated with the employee’s work location. This included
  four employees at work locations who contributed to campaigns for which there
  were no official campaign codes. We made no recommendations.




                                                   7
Independent Report on Employee Benefits, Withholdings, Contributions                    FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

             Appendix B: Unmatched Combined Federal Campaign Codes

     Duty                                                               Code
                                                                                 Code
   Station                                                               Per             Number of
                       City                County            State                Per
   Finance                                                             Postal            Employees
                                                                                 OPM
   Number                                                              Service
   050465       BAKERSFIELD          KERN                     CA        0096     0095         10
   055099       LOS ANGELES          LOS ANGELES              CA        0002     0096         1
   499950       DENVER               DENVER                   CO        0870     0141         1
   071944       CORTEZ               MONTEZUMA                CO        0004     0870         2
   072384       AURORA               UNKNOWN                  CO        0990     0141         3
   080580       BRIDGEPORT           FAIRFIELD                CT        0005     0164         2
   087956       SUFFIELD             HARTFORD                 CT        0005     0162         5
   089495       WINDSOR              HARTFORD                 CT        0432     0162         2
                WINDSOR
   089486                            HARTFORD                 CT        0005     0162         1
                LOCKS
                                     DISTRICT OF
   104200       WASHINGTON                                    DC        0105     0990         1
                                     COLUMBIA
                                     DISTRICT OF
   102135       WASHINGTON                                    DC        0481     0990         1
                                     COLUMBIA
   118925       TAMPA                HILLSBOROUGH             FL        0990     0197         1
   123146       FAIRMOUNT            GORDON                   GA        0211     0805         4
   140500       EWA BEACH            HONOLULU                 HI        0005     0225         5
   142950       KAILUA               HONOLULU                 HI        0005     0225         3
   172919       FORT WAYNE           ALLEN                    IN        0005     0283         2
   172920       FORT WAYNE           ALLEN                    IN        0005     0283         4
   172655       EVANSVILLE           VANDERBURGH              IN        0164     0355         1
   199526       WELDA                ANDERSON                 KS        0005     0524         1
   243944       LEE                  BERKSHIRE                MA        0005     0432         2
   236138       MILLERSVILLE         ANNE ARUNDEL             MD        0005     0405         1
   224395       LEWISTON             ANDROSCOGGIN             ME        0571     0391         2
   227050       RAYMOND              CUMBERLAND               ME        0571     0391         1
   255099       TROY                 OAKLAND                  MI        0453     0452         1
   259970       YALE                 ST. CLAIR                MI        0870     0452         1
   250800       BELLEVILLE           WAYNE                    MI        0164     0452         3
   252504       DETROIT              WAYNE                    MI        0164     0452         7
   258411       DETROIT              WAYNE                    MI        0164     0452         1
   253630       GARDEN CITY          WAYNE                    MI        0164     0452         2
   257600       PLYMOUTH             WAYNE                    MI        0164     0452         1
   252489       ROMULUS              WAYNE                    MI        0164     0452         1
   259965       SOUTHGATE            WAYNE                    MI        0164     0452         8
   259790       WESTLAND             WAYNE                    MI        0164     0452         1
   261710       CIRCLE PINES         ANOKA                    MN        0005     0481         1


                                                   8
Independent Report on Employee Benefits, Withholdings, Contributions                    FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

     Duty                                                               Code
                                                                                 Code
   Station                                                               Per             Number of
                       City                County            State                Per
   Finance                                                             Postal            Employees
                                                                                 OPM
   Number                                                              Service
   266780       NEWPORT              WASHINGTON               MN        0164     0481         1
                HOLLY
   273536                            MARSHALL                 MS        0809     None         1
                SPRINGS
   275629       NEWTON               NEWTON                   MS        0500     None         1
   274459       LOUISVILLE           WINSTON                  MS        0501     None         6
   275694       NOXAPATER            WINSTON                  MS        0500     None         1
   367664       SYLVA                JACKSON                  NC        0650     None         1
   363232       GRIMESLAND           PITT                     NC        0870     0655         1
   360096       ALBEMARLE            STANLY                   NC        0897     0655         3
   332535       FAIRVIEW             BERGEN                   NJ        0005     0589         1
   335385       MONTVALE             BERGEN                   NJ        0005     0589         2
   337140       RIDGEFIELD           BERGEN                   NJ        0005     0589         1
   339016       RIVERVALE            BERGEN                   NJ        0005     0589         1
                SADDLE
   337336                            BERGEN                   NJ        0005     0589         1
                BROOK
   314897       LAS VEGAS            CLARK                    NV        0005     0560         1
   351180       CANASTOTA            MADISON                  NY        0631     0634         1
   352789       INWOOD               NASSAU                   NY        0626     0642         1
   352980       FRANKFORT            HERKIMER                 NY        0637     0631         1
                PORT
   356780                            NASSAU                   NY        0626     0642         13
                WASHINGTON
                WASHINGTON
   358935                            ONEIDA                   NY        0637     0631         1
                MILLS
   359140       WESTERNVILLE         ONEIDA                   NY        0637     0631         1
   384480       LIMA                 ALLEN                    OH        0005     0693         2
   415588       MORGAN               ALLEGHENY                PA        0005     0754         1
   416188       OAKDALE              ALLEGHENY                PA        0005     0754         1
   416613       PITTSBURGH           ALLEGHENY                PA        0005     0754         3
   419925       PITTSBURGH           ALLEGHENY                PA        0005     0754         1
   419922       PITTSBURGH           ALLEGHENY                PA        0005     0754         1
   416617       PITTSBURGH           ALLEGHENY                PA        0005     0754         1
   414656       SOUTH PARK           ALLEGHENY                PA        0005     0754         1
   450660       BLACKSBURG           CHEROKEE                 SC        0655     None         3
   457820       SALUDA               SALUDA                   SC        0773     0212         1
   487125       PLEASANTON           ATASCOSA                 TX        0838     None         1
   547621       FEDERAL WAY          KING                     WA        0925     0923         1
   561470       CASHTON              MONROE                   WI        0481     0957         1
     67                                     Totals                                           141



                                                   9
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



                          Attachment A: Agreed-Upon Procedures




                                                  10
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  11
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  12
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  13
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  14
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  15
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  16
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  17
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  18
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  19
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  20
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  21
Independent Report on Employee Benefits, Withholdings, Contributions   FT-AR-14-002
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  22
